0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief Amicus
Curiae of American Target Advertising, Inc. in
Support of Petitioners in 19-251 and 19-255,
Americans for Prosperity Foundation v. Xavier Becerra,
Attorney General of California, and Thomas More Law
Center v. Xavier Becerra, Attorney General of
California, was sent via Next Day Service to the U.S.
Supreme Court, and Next Day e-mail service to the
following parties listed below, this 26th day of
February, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Counsel for Thomas More Law Center
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

Counsel for Americans for Prosperity Foundation

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

: 8790 Governor's Hill Drive
: Suite 102
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Aimee Athena Feinberg
California Department of Justice
1300 1 Street
Sacramento, CA 95814
(915) 210-6003
Aimee.Feinberg@doj.ca.gov

Counsel for Xavier Becerra, in his offical capacity as
the Attorney General of California
Mark J. Fitzgibbons
Counsel of Record
American Target Advertising, Inc.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676
mfitzgib bons@americantarget.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'-.-J

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My C?mmission Expires
eor• vv 14, 2023

